TABLE OF APPENDICES
United States v. Crystal Zuniga
Fifth Circuit Court of Appeals Opinion No. 20-10356 . . . . . . . Appendix A
United States v. Crystal Zuniga
United States District Court Judgment No. 4:19-CR-357-A . . . Appendix B

APPENDIX A

ORIGINAL Case: 20-10356 Document: 00515689322 Page: 1 Date Filed: 12/30/2020
Case 4:19-cr-00357-A Document 41 Filed 01/04/21 Page 1 of 2 PageID 146
CTJ
FILED

January 04, 2021

United States Court of AppealsKAREN MITCHELL
CLERK, U.S. DISTRICT COURT
for the Fifth Circuit
FILED
United States Court of Appeals
Fifth Circuit

December 8, 2020

No. 20-10356
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
versus

Plaintiff—Appellee,

Crystal Zuniga,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-357-1 -A
Before Barksdale, Graves, and Oldham, Circuit Judges.
Per Curiam:*
Crystal Zuniga pleaded guilty to maintaining a drug-involved
premises, in violation of 18 U.S.C. § 856(a)(1). Following a contested
sentencing hearing, the court sentenced her to, inter alia, a within-Sentencing
Guidelines term of 121-months’ imprisonment.

Zuniga challenges the

court’s application of the two-level sentencing enhancement under

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

1

Case: 20-10356
Document: 00515689322 Page: 2 Date Filed: 12/30/2020
Case 4:19-cr-00357-A Document 41 Filed 01/04/21 Page 2 of 2 PageID 147

Guideline § 2D1.1(b)(12) for maintaining a drug premises. Relying on United
States v. John, 309 F.3d 298, 305–06 (5th Cir. 2002), she contends imposing
the enhancement constituted impermissible double-counting, asserting the
act of maintaining a drug premises is already factored into the base offense
level for violating 18 U.S.C. § 856(a)(1).
Although post-Booker, the Guidelines are advisory only, the district
court must avoid significant procedural error, such as improperly calculating
the Guidelines sentencing range. Gall v. United States, 552 U.S. 38, 46, 51
(2007). If no such procedural error exists, a properly preserved objection to
an ultimate sentence is reviewed for substantive reasonableness under an
abuse-of-discretion standard. Id. at 51; United States v. Delgado-Martinez,
564 F.3d 750, 751–53 (5th Cir. 2009). In that respect, for issues preserved in
district court, its application of the Guidelines is reviewed de novo; its factual
findings, only for clear error. E.g., United States v. Cisneros-Gutierrez, 517
F.3d 751, 764 (5th Cir. 2008).
A district court’s imposing the Guideline § 2D1.1(b)(12) maintaininga-drug-premises enhancement is a factual finding reviewed for clear error,
United States v. Guzman-Reyes, 853 F.3d 260, 263 (5th Cir. 2017); but,
deciding whether the imposition of the maintaining-a-drug-premises
enhancement constitutes impermissible double counting is an application of
the Guidelines reviewed de novo, see United States v. Jones, 145 F.3d 736, 737
(5th Cir. 1998).
“Double counting is prohibited only if the particular guidelines at
issue specifically forbid it.” United States v. Jimenez-Elvirez, 862 F.3d 527,
541 (5th Cir. 2017) (internal quotation marks and citation omitted). Neither
Guideline § 2D1.1 nor § 2D1.8 expressly prohibits double counting. See
United States v. Gilford, 782 F. App’x 359, 360 (5th Cir. 2019).
AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00357-A Document 33 Filed 03/27/20

Page 1 of 5 PageID 89

Wntteb $tates 1J.Btstrtct Qtou t
Nm1hern District of Texas
Fort Worth Division
UNITED STATES OF AMERICA

§

v.

§

CRYSTAL ZUNIGA

§

MAR 2 7 2020
CLERK, U.S. DISTRICT COURT

By

kputy

Case Number: 4: 19-CR-357-A(O I)

JUDGMENT TN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Shawn Smith. The
defendant, CRYSTAL ZUNIGA, was represented by Kirk Matthew Claunch.
The defendant pleaded guilty on December 13, 2019 to the one count Information filed
on December 9, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
21 U.S.C. § 856(a)(l) and 18 U.S.C. § 2 Maintaining Drug-Involved Premises

Date Offense Concluded
October 2019

Count
I

As pronounced and imposed on March 27, 2020, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of$100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
ofthis comt, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody ofthe United States Bureau ofPrisons to be imprisoned for a term of 121 months. This
sentence shall run consecutively to any sentence which may be imposed in a probation
revocation hearing in Case No. 1430672D, before the 432"" District Court, Tarrant County,
Texas.
The defendant is remanded to the custody of the United States Marshal.

Case 4:19-cr-00357-A Document 33 Filed 03/27/20

Page 2 of 5 PageID 90

SUPERVISED RELEASE
The court further ORDERS that, upon release fi·om imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the following conditions of supervised release:
I.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

6.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of services
rendered at a rate of at least $25 per month.

7.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
I.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

2

Case 4:19-cr-00357-A Document 33 Filed 03/27/20

Page 3 of 5 PageID 91

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support her dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (1 0) days prior to any change
in residence or employment.

I 0.

The defendant shall refi·ain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit her at any time at home or
elsewhere and shall permit con!lscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement of!lcer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation of!lcer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The comi hereby directs the probation of!lcer to provide defendant with a written
statement that sets fmih all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

3

Case 4:19-cr-00357-A Document 33 Filed 03/27/20

Page 4 of 5 PageID 92

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal infonnation about the defendant are set fmih
on the attachment to this judgment.
Signed this the 27th day of March, 2020.

4

Case 4:19-cr-00357-A Document 33 Filed 03/27/20

Page 5 of 5 PageID 93

RETURN
I have executed the imprisonment pati of this Judgment as follows:

Defendant delivered on ________ , 2020 to --~c-----,-:c-c-----::-:--:----:---:--at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ ,with a certified copy of this Judgment.

United States Marshal for the
North em District of Texas

By ______________________________
Deputy United States Marshal

5

